                                                           IG-00-051




AUDIT
                                 CONTRACTOR TRAVEL COSTS
REPORT
                                     September 26, 2000




                           OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies


To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

COTR                Contracting Officer’s Technical Representative
DCAA                Defense Contract Audit Agency
FAR                 Federal Acquisition Regulation
W                                                                                    September 26, 2000


TO:               A/Administrator

FROM:             W/Inspector General

SUBJECT:          INFORMATION: Contractor Travel Costs
                  Report Number IG-00-051


The NASA Office of Inspector General has completed an audit of Contractor Travel Costs. We
found that policies and procedures of the selected contractors1 comply with applicable regulations
and address the Federal Acquisition Regulation (FAR). Also, the Johnson Space Center
(Johnson) independently launched a commendable initiative to reduce contactor travel costs by 20
percent. However, the targeted reduction in travel costs does not appear to be achievable or
measurable on the more than $24 billion in contracts awarded by Johnson. As a result,
implementation of the cost-saving initiative has faltered and best practices have not effectively
been identified.

Background

In fall 1998, the Director, Johnson Space Center (the Center Director) established a functional
review team to assess Center requirements to determine whether there were areas in which
Johnson could either reduce costs or increase efficiency. The former Johnson Assistant Director
for Procurement (the former Assistant Director) led the team that was tasked to provide an
independent assessment. One of the team’s recommendations was to reduce civil service and
contractor travel costs.

In May 1999, the Center Director cited the reduction of travel costs as a high priority and tasked
Johnson’s Office of Procurement to significantly reduce Johnson’s contractor travel costs. The
Center Director challenged the Office of Procurement to develop a means of reducing contractor
travel costs by 20 percent. While the audit showed that the 20-percent reduction may not be
achievable or measurable, there is value in sharing contractors’ best practices with other
contractors.



1
 The five major NASA contractors were United Space Alliance (Houston, Texas); Lockheed Martin Corporation
(Bethesda, Maryland); Lockheed Martin Technologies Services Group (Cherry Hill, New Jersey); the Boeing Company
(Seattle, Washington); and the California Institute of Technology (Pasadena, California).
                                                                                                       2


Recommendation and Management’s Response

We recommended that the Center Director establish a plan of action and milestones for the
cost-saving initiative that focus on completing the initiative by identifying and communicating best
practices to contractors. Management concurred. The Center Director plans to collect best
travel cost practices from the local contractor community and share those concepts with all
Johnson contractors. The Center Director anticipates completion of this initiative by November
2000.

Details on the status of the recommendation are in the recommendation section of the report.

[original signed by]

Roberta L. Gross

Enclosure
Final Report on Audit of Contractor Travel Costs
     FINAL REPORT
CONTRACTOR TRAVEL COSTS
W                                                                     September 26, 2000


TO:              AA/Director, Johnson Space Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on Audit of Contractor Travel Costs
                 Assignment Number A9905600
                 Report Number IG-00-051


The subject final report is provided for your information and use. Our evaluation of your
response is incorporated into the body of the report. The recommendation will remain open for
reporting purposes until corrective action is completed. Please notify us when action has been
completed on the recommendation, including the extent of testing performed to ensure
corrective actions are effective.


If you have questions concerning the report, please contract Mr. Dennis E. Coldren, Program
Director for Human Exploration and Development of Space Audits, at (281) 483-4773, or Ms.
Loretta Garza, Auditor-in-Charge, at (281) 483-0483. We appreciate the courtesies extended
to the audit staff. The report distribution is in Appendix F.

[original signed by]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/Acting Director, Management Assessment Division
M/Associate Administrator for Space Flight
                         NASA Office of Inspector General

IG-00-051                                                                   September 26, 2000
 A9905600
                                Contractor Travel Costs

Introduction

The NASA Office of Inspector General completed an audit of contractor travel costs. The
overall objective was to determine whether opportunities exist to reduce travel costs incurred by
major NASA contractors. Specifically, we determined whether contractor:

    •   policies ensure that travel is directly related to the Statement of Work and comply with
        the FAR, contract, and other requirements;
    •   policies and practices regarding airfare and other travel expenses are designed to
        minimize costs incurred; and
    •   management has developed programs to reduce travel costs.

Appendix A contains a detailed description of our objectives, scope, and methodology.

The FAR describes allowable contractor travel costs. It states that costs incurred by
contractors on official business are allowable provided the costing method used results in a
reasonable charge. In May 1999, the Center Director announced an initiative to reduce
contractor travel costs at Johnson by 20 percent. Johnson used the initiative as a means of
reducing overall operating costs.

Results in Brief
Based on limited compliance testing, we determined that policies and procedures of the selected
contractors comply with applicable regulations and address the FAR. Also, the contractors’
policies and procedures allow flexibility to implement cost savings, and most contractors
identified cost-saving initiatives. Appendix B provides details on these audit results. In addition,
the Defense Contract Audit Agency (DCAA) regularly performs incurred cost audits to further
ensure implementation of the contractors’ policies and the allowability, allocability, and
reasonableness of contractor travel costs.

With no requirement to do so, Johnson commendably launched an initiative to reduce contactor
travel costs by 20 percent. Johnson solicited and compiled a list of cost-saving ideas from its
major contractors. However, the targeted reduction in travel costs does not appear to be
achievable or measurable on the more than $24 billion in contracts awarded by Johnson. As a
result, implementation of the travel-saving initiative has faltered and best practices have not
effectively been identified.
Planning and Implementation of Cost-Saving Initiative

Before announcing the initiative to the contractors, the Johnson Director, Office of Procurement,
(the Procurement Director) informed the Center Director that he could reduce contractor travel
costs by 5 percent, based on a limited review performed by his office while planning the
initiative. The Procurement Director added that travel costs were low risk because contractors
were already controlling costs through incentive-based2 contracts and because DCAA would
review travel costs during incurred-cost audits. However, the Center Director maintained his
opinion that 20 percent was an achievable reduction and should be the goal.

Request for Cost-Saving Ideas from Contractors

In May 1999, the former Assistant Director tasked the contracting officers of Johnson’s major
contracts to meet with the contractors to explore actions that might be taken to reduce travel
costs by 20 percent. (Appendix C lists the 17 major contracts and summarizes the contractors’
actions in response to the initiative.)3 As summarized in Appendix C, all the contractors
responded to the contracting officers.

From the contractor responses, the former Assistant Director compiled a list of
recommendations. Examples of the contractor’s cost-saving ideas included outsourcing travel
to a competitive travel agent, purchasing nonrefundable tickets, sharing rental cars, more
economical provisions for lodging, and utilizing teleconferences. The former Assistant Director
instructed the contracting officers to provide the contractors with the list of recommendations to
further develop a plan to achieve the targeted level of savings.

Request for Contractor Plans

Johnson took no further action on the initiative until August 1999, when the Procurement
Director requested a progress report from the former Assistant Director on actions taken to
achieve the targeted reduction in travel costs. In response, the former Assistant Director
requested that the cognizant contracting officers:

     •    evaluate any travel initiative received from the contractors and the progress that the
          contractors had made toward meeting those goals,

     •    submit a plan describing how the travel initiatives would be addressed on each contract,
          and

     •    address the contractor’s performance on this initiative separately in determining fee for
          award-fee contracts.

2
  Incentive-based contracts allow contractors to keep a predetermined amount, usually represented by a percentage, of
contract savings.
3
  The 17 contracts were with 14 contractors. To avoid confusion, the report discusses the 17 contracts as if they were
with separate contractors.


                                                           2
Actions Taken by Contracting Officers and Contractors

Johnson did not ensure that all contractors were requested to provide a plan and did not
determine why some contractors did not respond to the request. The contracting officers asked
7 of the 17 contractors to develop a plan to meet the 20-percent cost-reduction goal including a
description of the proposed initiatives and a schedule for implementation. The contracting
officers also asked that the contractors submit the plan by September 15, 1999, and notified
them that, starting October 1, 1999, Johnson would use the plan during award fee evaluations
as the basis for evaluating a contractor’s progress toward meeting the goal. However, the
contracting officers did not change the contractors’ award fee structure. Instead, the
contracting officers subjectively assessed contractor success in reducing travel costs as one of
several factors in evaluating the contractors’ overall performance on the contract. Of the seven
contractors that Johnson asked to provide a plan, five contractors responded (see Appendix
C). For one of the two remaining contactors, the contracting officer assumed that the
contractor had not responded because the contract expired on September 30, 1999. The
contracting officer for the other contractor did not follow up on the reason it failed to respond.

For the 10 contractors not asked to provide a plan, contracting officers intentionally did not ask
2 contractors to provide a plan. The COTR did not agree that one of the contractors could
reduce travel costs because it travels only at the direction of the Government. The contracting
officer on the other contract elected not to include a separate area of emphasis in the
contractor’s award fee evaluations, but offered an alternative course of action. The contracting
officer planned to comment on the contractor’s efforts to reduce travel under a contract
management subfactor in the award fee evaluation. The contracting officer also asked the
contractor to provide information in its self-evaluation report on its progress in reducing travel
costs. Contracting officers provided documentation showing that two other contractors
provided Johnson with a plan; however, the contracting officers could not provide us a copy of
a request for a plan sent to those two contractors. Furthermore, other contracting officers could
neither recall nor provide us documentation on whether they asked the remaining six contractors
to prepare a plan (see Appendix C).

Involvement by Johnson Procurement Director

After the August 1999 request for a progress report, the Procurement Director did not request
another status report on the initiative. The former Assistant Director retired in February 2000,
and the Procurement Director did not reassign the initiative until April 2000, to the Deputy
Director of Procurement. The Procurement Director told us that the Center Director has not
requested a status on the initiative since May 1999.

Measuring the Results of the Initiative

Contractors are generally not required to report travel costs separately from other direct costs
when requesting reimbursement of expenditures. As a result, some contracting officers


                                                3
concluded that the only way to measure the cost reduction was to have the contractors provide
a comparison of its actual to budgeted travel costs for the current fiscal year. However,
Johnson cannot rely on this contractor-provided comparison for measuring travel cost savings
because the contractor would be establishing the baseline by estimating its own travel costs.

The Procurement Director stated that, although he could not measure the effectiveness of the
initiative, he was satisfied that contractors were placing increased attention on travel costs.
Also, because many of the contracts are incentive-type contracts, he was satisfied the
contractors were already motivated to minimize costs.

Focusing on Best Practices

The Johnson travel cost-saving initiative is a commendable idea. However, to be successful, it
needs a realistic and measurable goal and effective planning and implementation. Johnson did
not have a plan to implement the initiative that outlines steps necessary to achieve the goals,
milestones, and dates to measure progress and a follow-up system to ensure actions are taken.
While a 20-percent reduction in contractor travel costs may not be achievable or measurable,
there is value in sharing contractors’ best practices with other contractors. We agree that cost
savings should not be realized at the expense of essential travel. However, opportunities exist
for cost reductions without adversely affecting the mission, such as contracting with a single
travel agent, teleconferencing, sharing rental cars, negotiating rate discounts with airlines, hotels,
car rentals, etc.

Recommendation, Management’s Response, and Evaluation of
Response

The Director, Johnson Space Center should establish a plan of action and milestones
for the cost-saving initiative that focus on completing the initiative by identifying and
communicating best practices to contractors.

Management’s Response. Concur. Johnson plans to collect best practices related to travel
from the local contractor community and to share those concepts with all Johnson contractors.
Management also provided general comments that expressed dissatisfaction with our position
that the initiative faltered while the report also states that contractors instituted travel policies and
procedures that provide adequate assurance that the Government will not be overcharged. The
complete text of management’s response is in Appendix D.

Evaluation of Response. The actions planned by management are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective actions are completed. Our additional comments on management’s
response are in Appendix E.




                                                   4
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the survey was to determine whether opportunities exist to reduce
travel costs incurred by major NASA contractors. Specifically, we determined whether
contractor:

    •   policies ensure that travel is directly related to the Statement of Work and comply with
        the FAR, contract, and other requirements;
    •   policies and practices regarding airfare and other travel expenses are designed to
        minimize costs incurred; and
    •   management has developed programs to reduce travel costs.

Scope and Methodology

To satisfy our objectives, we obtained and performed a limited review of travel policies and
procedures for five major NASA contractors:

    •   United Space Alliance (Houston, Texas);
    •   Lockheed Martin Corporation (Bethesda, Maryland);
    •   Lockheed Martin Technologies Services Group (Cherry Hill, New Jersey);
    •   The Boeing Company (Seattle, Washington); and
    •   California Institute of Technology (Pasadena, California).

We also reviewed travel cost initiatives begun by the contractors. We reviewed the United
Space Alliance and Lockheed Martin Technologies Services Group practice of charging travel
costs to public vouchers. We performed a limited review of the advance travel agreement
between United Space Alliance and NASA and between Boeing and the Government.

To achieve the audit objectives, we relied on computer-processed data to review the
contractors’ practice of charging travel costs to the billing system. Although we did not perform
a formal reliability assessment of the computer-processed data, we determined that the travel
costs in the billing system agreed with source documents. We did not find errors that would
preclude use of the computer-processed data to meet the audit objectives or that would change
the conclusions in the report.

During our review of Boeing’s advance travel agreement, we found that the DCAA was
reviewing similar issues. Specifically, DCAA was reviewing international travel costs for the
International Space Station contract and determining the reasonableness of the advance travel
agreement. DCAA plans to issue a report on the audit by September 30, 2000. Consequently,
we terminated work on that area pending the results of the DCAA audit.



                                               5
Appendix A

Management Controls Reviewed

We reviewed management controls relative to contractor travel costs as described in
FAR 31.206-46, “Travel Costs.” We considered management controls to be adequate except
that controls needed to be strengthened to ensure that Johnson establishes a plan of action and
milestones for completing its cost-saving initiative.

Audit Field Work

We performed our field work in Houston, Texas, from October 1999 through July 2000. We
performed the audit in accordance with generally accepted government auditing standards.




                                               6
                        Appendix B. Overall Audit Results

Contractor Travel Policies Comply with the FAR

NASA contractors are required to comply with FAR 31.205-46, “Travel Costs,” which
describes allowable contractor travel costs. It states that costs incurred by contractors on
official business are allowable provided the costing method used results in a reasonable charge.
The costs shall be considered to be reasonable and allowable only to the extent that they do not
exceed on a daily basis the maximum per diem rates in effect at the time of travel.

Our audit results showed that selected contractors have instituted travel policies and procedures
that comply with Federal travel laws and regulations and provide adequate assurance that travel
costs should not result in overcharges to the Government.

United Space Alliance. Travel policies and procedures address the criteria outlined in the
FAR. United Space Alliance does allow for exceptions on airfare to executive-level employees.
These employees may fly business or first class and use actual expenses for reimbursement.
However, United Space Alliance cannot charge costs to the Government in excess of those
indicated in the FAR. In addition, NASA is protected by an advance travel agreement on
executive-level employees. Our review showed that United Space Alliance’s Advance Travel
Agreement is reasonable and has little impact because it applies only to a limited number of
employees; otherwise NASA receives the full benefit of coach versus first-class cost
comparisons. The policy should not have a significant dollar impact because of the few people
affected.

Lockheed Martin Corporation. Travel policies and procedures comply with laws and
regulations and provide assurance that travel costs will not result in overcharges to the
Government. The procedures address FAR limitations. Specifically, the travel policy states that
employees will abide by all applicable laws and regulations and customer requirements and that
travel activities will be conducted in the most economical manner practicable. Employees are
required to use only the travel service agencies approved by the Lockheed Martin Corporation.

Lockheed Martin Technology Services Group. Travel policies and procedures comply
with laws and regulations and provide assurance that travel costs should not result in
overcharges to the Government. The procedures address the FAR requirements and define
allowable and unallowable costs. Employees are required to use only the travel service agency
approved by the Lockheed Martin Technology Services Group for business travel
arrangements. All travel modes shall be reimbursed at the most practicable economical rate
available and at the lowest customary standard coach fare.

California Institute of Technology. Travel policies and procedures comply with laws and
regulations and address per diem ceilings and airfare as outlined in the FAR.

                                               7
Appendix B

The Boeing Company. Boeing’s Travel policy and procedures address reimbursement
requirements, but they do not address FAR 31 limitations on per diem. However, as of January
1, 2000, Boeing issued a disclosure statement that addresses allowability of travel cost up to the
per diem amount. Boeing’s policy also states that all employees can fly business class for
foreign travel. However, Boeing has a travel advance agreement with the Government that
decreases airfares based on a negotiated amount. As part of the agreement, Boeing will
provide an updated study on travel cost savings by September 30, 2000.

Policies and Procedures Designed to Minimize Travel Costs

Our review of selected contractors showed that the contractors have initiated travel cost-saving
initiatives either independently or at NASA’s direction as illustrated below:

United Space Alliance. Travel cost-saving initiatives include establishing a team in September
1999 to update, enhance, and reorganize current travel policy and procedures. Also, United
Space Alliance selected a single travel agency and hopes to incorporate employee expenses into
payroll system. United Space Alliance is also considering a paperless automated system.

Lockheed. Travel cost-saving initiatives include establishing a Corporate Travel Council that is
considering the following cost-saving measures:

    •   Select one travel agency and one car rental agency.
    •   Negotiate airline carriers and rates.
    •   Select preferred properties.
    •   Negotiate discount rates.

California Institute of Technology. Travel cost-saving initiatives are built into policy and
procedures to include using teleconferencing whenever practicable and limiting travel. Upon
completion of travel, one individual should summarize and report results to other staff members.




                                                8
                                                                                    Appendix B

Boeing. Boeing's International Space Station team intends to pursue the following travel
cost-saving initiatives:

     •   Reduce number of status meetings.
     •   Challenge international travel.
     •   Share rental cars.
     •   Enforce parking at commercial lots rather than at airports.

Additionally, we performed a limited review of the practice of billing travel transactions to
NASA by Lockheed Martin Space Operations (Lockheed), Cherry Hill, New Jersey, and
United Space Alliance, Houston, Texas. We traced direct travel costs billed on a voucher to
the source documents. Based on our limited review, we considered the Lockheed and United
Space Alliance practices of billing travel as low risk.

Additional Work at The Boeing Company

In April 1999, the contracting officer for the International Space Station Contract4 asked
DCAA-Houston to perform an audit on international travel costs with a focus on airfares and
lodging for international travel. As of May 2000, DCAA-Houston has requested an assist audit
from DCAA-Boeing Corporate Headquarters in Seattle, Washington, to complete the review.
DCAA-Houston plans to issue its audit report by September 30, 2000. Depending upon the
outcome of the audit, we may follow up on Boeing’s procedures.




4
 The contract number for the International Space Station contract is NAS15-10000.

                                                         9
                                       Appendix C. Summary of Actions Taken on the
                                               Travel Cost-Saving Initiative

                                                                                Johnson            Johnson                          Johnson
                                                                Contract        Notified        Requested Plan                     Evaluating
                                                   Contract      Value         Contractor            from          Contractor      Contractor
             Contractor           Contract No.      Type       ($ Million)   about Initiative     Contractor     Submitted Plan   Based on Plan
      Hernandez Engineering     NAS9-19181        CPAF            $     21         Yes               Yes              No1             N/A
      Lockheed Martin           NAS9-19100        CPAF              1,600          Yes               Yes              Yes             Yes2
      Lockheed Martin           NAS9-98100        CPAF              1,896          Yes3              ND               ND              ND
      Lockheed Martin           NAS9-18300        CPAF                 794         Yes               ND               ND              ND
      Hamilton-Sunstrand        NAS9-97150         CPIF                180         Yes4              ND               ND              ND
      Kelsey-Seybold            NAS9-19357        CPAF                  34         Yes               Yes              Yes5            Yes
      Wyle Laboratories         NAS9-97005        CPAF                 102         Yes               Yes              Yes             Yes
10




      Wyle Laboratories         NAS9-97114        CPAF                  40         Yes               Yes              Yes             Yes
      Science Applications
      International, Inc.       NAS9-19180        CPAF                279       Yes6                 ND               ND              ND
      DynCorp                   NAS9-99072        CPAF                 51       Yes                  No7              N/A             N/A
      Boeing                    NAS15-10000       CPAF              9,304       Yes                  No8              N/A             N/A
      United Space Alliance     NAS9-20000         CPIF             8,659       Yes                  ND9              ND              ND
      Johnson Engineering       NAS9-18800        CPAF                334       Yes                  Yes              Yes             Yes
      Raytheon                  NAS9-18181        CPAF                712       Yes                  Yes              No10            N/A
      Indyne, Inc.              NAS9-97001         CPIF                65       Yes                  ND11             ND              ND
      Rothe                     NAS9-97218        CPAF                 53       Yes                  No12             N/A             N/A
      TechTrans International   NAS9-19549        CPAF                 30       Yes                  No13             N/A             N/A
      Totals                                                      $24,154
     CPAF – cost-plus-award fee      CPIF – cost-plus-incentive fee       N/A – not applicable
ND – Not Determinable –We requested information from Johnson on June 23, 2000, but the information was not available in the contract files.
See notes on next page.
                                                                                                                                                                      Appendix C
     Notes :
     1. The contracting officer reported a comparison of actual travel to budgeted travel, and the contractor agreed to accommodate the 20-percent reduction by eliminating
         Russian travel. However, the contract expired on September 30, 1999, and the contracting officer did not make any further requests for the plan.
     2. The contractor reports actual travel costs and not budget costs to the contracting officer during monthly management meetings. The contractor’s actual travel costs are
         16-percent less than budgeted travel costs for 2000.
     3. The contracting officer planned to evaluate Lockheed Martin’s performance as part of the cost evaluation in the award fee process. The contractor was to provide its
         progress in its self-evaluation.
     4. The contracting officer was concerned with further reductions in travel costs because the total contract value was initially reduced by a negotiated $50,000 “management
         challenge.” The contracting officer stressed that further restriction in travel could have a serious effect on the contractor’s ability to perform. Therefore, the contracting
         officer did not recommend an area of emphasis change on the award fee evaluation.
     5. The contracting officer sent the contractor a letter requesting a plan on how the contractor will meet the 20-percent reduction. The plan was due to the contracting officer
         by September 15, 1999. Although the contracting officer did not receive the plan until June 2000, the contractor has communicated travel cost through technical
         interaction and meetings.
     6. The contracting officer reported a comparison of actual costs to budgeted costs. The contractor stated it reduced travel costs by ensuring that only essential personnel
         travel, that efficient itineraries were planned, and that teleconferencing was not a viable option.
     7. The COTR did not agree that the contractor could reduce travel. The contracting officer stated “Aircraft Operation Division (AOD) evaluates contractor travel on a
         monthly basis, as it is reported to us on their monthly reports. The COTR considers the current travel rate for each contractor to be consistent with AOD tasking. On a
11




         case-by-case basis, travel has been and will be queried when there is any question as to the plans versus the tasking. The COTR judges that to reduce the travel rates by
         the two AOD contractors is undesirable from a mission completion standpoint.”
     8. In May 1999, Boeing submitted a letter describing the steps it is taking to reduce travel costs on the contract. The contracting officer elected not to include a separate
         area of emphasis for travel reductions on the award fee evaluation. However, the contracting officer stated she would comment on Boeing’s efforts to reduce travel under
         the award fee subfactor for contract management. The contracting officer asked Boeing to provide information on its progress toward the 20-percent goal when Boeing
         prepares its self-evaluation.
     9. The contracting officer believes that the contractor is already motivated to keep travel costs to a minimum because the contract has an incentive of a 65/35-share line on
         contract underruns. In addition, the contractor has an advance travel agreement with Johnson whereby costs for first-class travel by certain executives is decreased for
         purposes of contract charges.
     10. Although the contractor did not submit a plan, Johnson has been monitoring the decline in the contractor’s average cost per trip from June 1999 to June 2000.
     11. The contracting officer stated he would monitor and evaluate the contractor’s performance on travel costs under the Program Management element of the award fee.
     12. Although the contract files did not document that the contracting officer sent a letter requesting a plan, the contracting officer stated the contractor is being evaluated on
         travel costs during award fee evaluations.
     13. Although the contract files did not document that the contracting officer sent a letter requesting a plan, the contractor’s travel costs have declined annually for the last 3
         years.
Appendix D. Management’s Response




                                    See Appendix E,
                                    OIG Comment




               13
     Appendix D




14
            Appendix E. Office of Inspector General Comments
                      on Management’s Response

Johnson management provided the following general comments in its response to our draft
report. Our responses to the comments are also presented.

Management’s Comment. Management stated that the audit report discusses at length that
the procurement office faltered in its implementation of the travel-saving initiative while the
report also concludes that based on existing requirements and procedures, travel costs will not
result in overcharges to the Government, which reflects a similar determination made earlier by
Johnson.

Office of Inspector General Comments. Management’s comments imply an inconsistency
between our conclusion regarding contractor travel policies and procedures and our conclusion
regarding the Johnson travel initiative. The two conclusions are not contradictory. Our
determination that policies and procedures of selected contractors comply with applicable
regulations and that the contractors’ policies and procedures allow flexibility to implement cost
savings does not relate to our conclusion about the effectiveness of the Johnson initiative.
Sound contractor policies and procedures provide adequate assurance that travel costs will not
result in overcharges to the Government; however, the Johnson initiative does not permit a
determination on whether targeted savings can be achieved or measured. We do not imply that
Johnson’s initiative will cost the Government more money, only that it will be difficult to
determine whether travel costs have been reduced. Also, our report states that the initiative
faltered, not that the procurement office faltered.




                                               15
                        Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Director, Lyndon B. Johnson Space Center
  Director, Office of Procurement, Lyndon B. Johnson Space Center
  Audit Liaison, Lyndon B. Johnson Space Center
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation



                                           16
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs




                                          17
Appendix F

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees (cont.)

House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             18
                NASA Assistant Inspector General for Auditing
                               Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title:

Report Number:                                   Report Date:


           Circle the appropriate rating for the following statements.

                                                Strongl                              Strongl
                                                   y      Agree   Neutra   Disagre   y         N/A
                                                 Agree              l         e      Disagre
                                                                                        e
1. The report was clear, readable, and             5       4        3         2         1      N/A

   logically organized.
2. The report was concise and to the point.        5       4        3         2         1      N/A

3. We effectively communicated the audit           5       4        3         2         1      N/A

   objectives, scope, and methodology.
4. The report contained sufficient                 5       4        3         2         1      N/A

   information to support the finding(s) in a
   balanced and objective manner.

Overall, how would you rate the report?

     Excellent            Fair
     Very Good            Poor
     Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                     No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Dennis Coldren, Program Director, Human Exploration and Development of Space Audits

Loretta Garza, Auditor-in-Charge

Jimmie Griggs, Auditor

Nancy Cipolla, Report Process Manager

June Glisan, Program Assistant
